Vi

CERTIFICATE OF SERVICE
I do hereby certify under penalty of perjury under the laws of the United
States of America that the foregoing is true and correct that a copy of the Petition
for a Writ of Certiorari has been served via U. S. Mail, postage prepaid, upon:
John David Collins
Braxton Thrash
1901 Sixth Avenue North
2400 Regions/Harbert Plaza
Birmingham, Alabama 35203-2618
who are the attorneys of record for Regions Bank.
Executed on March 12, 2020.

%-

James Leonard Hines

